  INSPECTOR GENERAL REVIEW OF
 FISCAL YEAR 2010 DRUG CONTROL
FUNDS AND PERFORMANCE SUMMARY
           REPORTING

  National Highway Traffic Safety Administration

           Report Number: FI-2011-037

          Date Issued: February 1, 2011
U.S. Department of                                            Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation

February 1, 2011

Mr. Jon E. Rice
Associate Director for Performance and Budget
Office of National Drug Control Policy
Washington, DC 20503

Dear Mr. Rice:

This report presents the results of our independent review of the U.S. Department
of Transportation, National Highway Traffic Safety Administration’s (NHTSA)
Fiscal Year 2010 Drug Control Obligation Summary and Performance Summary
reports to the Office of National Drug Control Policy (ONDCP). Both reports are
dated January 26, 2011. The reports and our review are required by 21 U.S.C.
§1704 (d).

The objective of our review is to provide assurance that no information came to
our attention that would reverse management’s assertions that the reports complied
with ONDCP Circular, Drug Control Accounting, requirements, dated May 1,
2007, in all material respects. This review was conducted in accordance with the
attestation standards established by the American Institute of Certified Public
Accountants and generally accepted government auditing standards prescribed by
the Comptroller General of the United States. A review is substantially more
limited in scope than an examination. The objective of an examination is to
express an opinion on the accuracy of NHTSA's Drug Control Obligation
Summary and Performance Summary reports to ONDCP. As this was a review,
we do not express such an opinion.

Drug Control Obligations Summary
We performed review procedures on the accompanying report (Enclosure 1),
NHTSA’s Fiscal Year 2010 Drug Control Obligation Summary. In general, our
work was limited to inquiries and analytical procedures appropriate for an
attestation review based upon criteria specified in the ONDCP Circular.
Specifically, we tested the procedures described in the Internal Control
Questionnaire to ensure drug control funds are properly identified in the
accounting system. We traced obligations totaling approximately $2.7 million
identified in the report to the Department’s accounting system. We also verified


Report Number FI-2011-037
                                                                                2

that five major drug control obligations in the accounting system, totaling more
than $2.1 million, were supported by contracts.

During our review, no information came to our attention that the accompanying
NHTSA Fiscal Year 2010 Drug Control Obligation Summary to ONDCP was not
presented in conformity with the ONDCP Circular. Since NHTSA is reporting
approximately $2.7 million in drug control obligations, which is below the
$50 million threshold for full reporting required by the ONDCP Circular, we attest
that full compliance with this Circular would constitute an unreasonable reporting
burden.

Performance Reporting Summary and Assertions
We performed review procedures on the accompanying report (Enclosure 2),
NHTSA's Fiscal Year 2010 Performance Summary Report, and management’s
assertions. NHTSA's fiscal year 2010 performance target was to design and
develop procedures for a Case Control Study of the Crash Risk of Drug-Impaired
Drivers. NHTSA reported that this performance target was achieved and the study
implemented. For fiscal year 2011, NHTSA anticipates completing at least the
first half of the study by collecting data from 1,250 crash-involved drivers and
control data from another 2,500 non-crash-drivers at the same location one week
later.

In general, our review processes were limited to inquiries and analytical
procedures appropriate for an attestation review based upon the criteria specified
in the ONDCP Circular. Specifically, we reviewed the study plan, including the
participant recruitment procedures and survey questionnaires; and data collection,
handling, and processing procedures. In addition, we reviewed management's
assertions and the contract supporting the fiscal year 2010 performance measures.
During our review, no information came to our attention that the accompanying
NHTSA Fiscal Year 2010 Performance Summary Report was not presented in
conformity with the ONDCP Circular.

Sincerely,



Earl C. Hedges
Acting Assistant Inspector General for
 Financial and Information Technology Audits
Enclosure(s)

cc: Senior Associate Administrator for Policy and Operations, NHTSA



Report Number FI-2011-037
